   COMPLIANCE WITH STANDARDS GOVERNING
 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
SOUTHWESTERN INSTITUTE OF FORENSIC SCIENCES
           DALLAS COUNTY, TEXAS



          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division


      Audit Report Number GR-80-10-002
               December 2009
       COMPLIANCE WITH STANDARDS GOVERNING
     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
    SOUTHWESTERN INSTITUTE OF FORENSIC SCIENCES
               DALLAS COUNTY, TEXAS

                             EXECUTIVE SUMMARY


       The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the
Southwestern Institute of Forensic Sciences (SWIFS) Laboratory
(Laboratory). The Federal Bureau of Investigation’s (FBI) CODIS program
blends forensic science and computer technology to provide an investigative
tool to federal, state, and local crime laboratories in the United States, as
well as those from select international law enforcement agencies. The
CODIS program allows laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. The FBI’s CODIS Unit manages CODIS, as
                                   1

well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.



       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
      The objectives of our audit were to determine if the: (1) Laboratory
was in compliance with the NDIS participation requirements; (2) Laboratory
was in compliance with the Quality Assurance Standards (QAS) issued by the
FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. The results of our
review are below.

  •   The results of our review indicated that the Laboratory did not strictly
      adhere to all of the NDIS participation requirements we reviewed. The
      NDIS participation requirement compliance issues we found resulted
      from the Laboratory not: (1) storing the CODIS server backup media
      in a locked container at an off-site location on a monthly basis,
      (2) properly authorizing through the FBI an analyst that used CODIS
      for 1 year, (3) forwarding its most recent external audit report to the
      FBI within the required time frame, and (4) making best efforts to
      disposition in a timely manner 8 of the 17 CODIS matches we selected
      for review. In addition, the Laboratory did not maintain adequate
      documentation to determine timely notification of investigators for
      three matches and could not locate the case file for the profile involved
      in one match we attempted to review. 2 As a result of our audit, the
      Laboratory stated that it would begin making monthly backup tapes of
      the CODIS server and storing them in a locked container at a secure
      facility off-site, and the unauthorized CODIS user is no longer
      employed at the Laboratory. The Laboratory was in compliance with
      the remaining NDIS participation requirements we reviewed.

  •   Our audit results indicate that the Laboratory did not adhere to all of
      the Quality Assurance Standards (QAS) we reviewed. Four profiles we
      requested to review during our audit were missing documentation of
      DNA analysis. Specifically, the Laboratory could not locate case files
      for three profiles we requested to review, and one profile we reviewed
      was missing evidence of DNA analysis in the case file. 3 Forensic
      QAS 11 requires that laboratories maintain documentation generated
      by examiners related to case analyses. As a result, for these profiles it
      was not possible to verify adherence to Quality Assurance Standards
      such as technical review, control samples, and quantitation. In

      2
        While timely notification of investigators is not an NDIS participation requirement,
 the OIG uses a standard of 2 weeks. The profile with a missing case file is discussed
 further in the Quality Assurance Standards section of our audit report.
      3
         Three of these profiles were in our sample of forensic profiles as part of our testing
 for the suitability of profiles at NDIS and one was involved in a match we selected for
 review as part of our NDIS Participation Requirement testing.
      addition, for those profiles missing case files it was not possible to
      assess compliance with NDIS suitability requirements or NDIS
      Participation Requirements for timely match resolutions. We verified
      that the Laboratory removed three of these four incompliant profiles.

  •   In our sample of 103 profiles, 2 profiles were inaccurate and 18
      profiles were deleted from NDIS because they were unallowable,
      incomplete, or missing, and because of insufficient record retention, 15
      of the Laboratory’s files did not have sufficient evidence to determine if
      the profiles were obtained from a crime scene. The Laboratory deleted
      these 35 profiles from NDIS. The remaining 68 profiles we reviewed
      were complete, accurate, and allowable for inclusion in NDIS.
      However, 58 of the 103 profiles in our sample are not searchable at
      NDIS because they contain 9 or less core loci rather than the minimum
      of 10 loci required to be searchable at NDIS. 4 Prior to January 2009,
      the Laboratory only attempted the analysis of 13 loci on forensic
      samples that did not have a standard for comparison, but in January
      2009, the Laboratory began attempting the analysis of 13 core loci.
      However, 11 (30 percent) of the 37 samples analyzed between
      January 1, 2009, and May 13, 2009, contained less than 13 loci. The
      CODIS Administrator explained that it could be a matter of timing if
      the profile was run prior to January 1, 2009, or 13 loci were not run
      either because a suspect profile had already been developed for
      comparison or some of the sample was preserved for later use.

      We made 10 recommendations to address the Laboratory’s compliance
with standards governing CODIS activities, which are discussed in detail in
the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology are detailed in Appendix I of the report
and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. In addition, we
requested a written response to a draft of our audit report from the FBI and
the Laboratory. The Laboratory responded that it agreed with all ten of our
recommendations. In addition, the Laboratory took adequate corrective
actions to close eight recommendations. The FBI responded that it agreed
with nine of our recommendations. The Laboratory response can be found in
Appendix IV, while the FBI’s response can be found in Appendix V. Our
analysis of those responses, as well as the actions necessary to close the
recommendations can be found in Appendix VI of this report.

      4
          A locus is a specific location on a chromosome. The plural form of locus is loci.
